                                                              OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 4) Version 4.0a
                Reporting Entity: Amtrak ‐ OIG
              Month Ending Date: 05/31/2010

                                                              Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau          Recovery Act TAFS      Award Type        US Indicator       Total Obligations      Total Gross       Direct or          Ordering TAFS
No.                                                                                                                       Outlays       Reimbursable
      Amtrak ‐ OIG                (69‐0724 2009 \ 2013)  Formula and Block       Y ‐ US              $420,805            $350,600 
                                  Amtrak ‐ OIG ‐ Recovery     Grant
  1                               Act
  2
  3
  4
  5
  6
  7
  8
  9
 10

                                                 Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau        FY 2009 Non‐Recovery    Total FY 2009      Total FY 2009    FY 2010 Non‐Recovery    Total FY 2010    Total FY 2010 
No.                                      Act TAFS           Obligations       Gross Outlays          Act TAFS           Obligations     Gross Outlays
  1 Amtrak ‐ OIG                  Amtrak - OIG                    $228,694          $228,465 Amtrak - OIG                    $355,293           261061
  2
  3
  4
  5
  6
  7
  8
  9
 10




                                                                                                                       Copy of OIG Monthly Reporting Template 053110.xls
                                                                                             OIG Recovery Act Monthly Report

  Monthly Update Report Data (sheet 2 of 4) Version 4.0a
           Reporting OIG: Amtrak ‐ OIG
       Month Ending Date: 5/31/2010

                                     FTE Working on Recovery
                                                                                                                                                                   Testimonies:
          Fiscal Year                   2009              2010                           Cumulative
           Newly Hired FTE 
                                         0.38                       3.08                     3.46                                                          Provided (monthly):        0
               (cumulative):

  FTE Funded by Recovery 
                                         0.38                       3.08                     3.46                                                       Provided (cumulative):        1
   Act Funds (cumulative):

         FTE Not Funded by 
        Recovery Act Funds               0.74                       2.46                     3.20
              (cumulative):

                                                                                                                                                       Audits / Inspections / Evaluations / 
                   Complaints                          Whistleblower Reprisal Allegations                               Investigations                                                                   Training / Outreach
                                                                                                                                                                     Reviews
                 Monthly Data                                       Monthly Data                                        Monthly Data                              Monthly Data                               Monthly Data

                                                                                                                                                                                                         Training Sessions 
                    Received:             0                                Received:          0               Opened (this month):                0      Initiated (this month):      0                                              0
                                                                                                                                                                                                                 Provided:

                                                                                                            Active (as of the end of                   In Process (as of the end 
                                                                           Accepted:          0                                                   2                                   4               Individuals Trained:           0
                                                                                                                        the month):                              of the month):
                                                                                                                                                               Completed Final 
                                                                                                                                                                                                         Hours of Training 
                                                                                                                   Pending Decision:              0            Published Work         1                                              0
                                                                                                                                                                                                                Provided:
                                                                                                                                                                       Products:
                                                                                                                                                                Priority Interim 
                                                                                                                                                                                                       Outreach Sessions 
                                                                                                             Closed without Action:               0            Published Work         0                                              0
                                                                                                                                                                                                             Conducted:
                                                                                                                                                                       Products:
                                                                                                                       Accepted for                          Unpublished Work 
                                                                                                                                                  0                                   0
                                                                                                                       Prosecution:                                  Products*:
                                                                                                              Prosecution Declined:               0

                                                                                                           Referred for Alternative 
                                                                                                                                                  0
                                                                                                                        Resolution:
     Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009                    Cumulative Data Since 2/17/2009             Cumulative Data Since 2/17/2009           Cumulative Data Since 2/17/2009
                                                                                                                                                             Completed Final 
                                                                                                                                                                                                         Training Sessions 
                    Received:             0                                Received:          0              Closed without Action:               0          Published Work        1                                                 0
                                                                                                                                                                                                                 Provided:
                                                                                                                                                                    Products:
                                                                                                                                                              Priority Interim 
                                                                                                                         Accepted for 
                                                                           Accepted:          0                                                   0          Published Work        0                  Individuals Trained:           0
                                                                                                                         Prosecution:
                                                                                                                                                                    Products:
                                                                                                                                                          Unpublished Work                               Hours of Training 
                                                                                                              Prosecution Declined:               0                                3                                                 0
                                                                                                                                                                   Products*:                                   Provided:

                                                                                                           Referred for Alternative                                                                    Outreach Sessions 
                                                                                                                                                  0          Cumulative Total:        4                                              6
                                                                                                                        Resolution:                                                                          Conducted:

                                                                                                                   Cumulative Total:              0


*These work products were not published because they contain proprietary or other sensitive information that cannot be made available to the public.                                           Copy of OIG Monthly Reporting Template 053110.xls
                                    OIG Recovery Act Monthly Report
Monthly Update Report Data (sheet 3 of 4) Version 4.0a
      Reporting OIG: Amtrak ‐ OIG
  Month Ending Date: 05/31/2010

       No.                      OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
        1            Prepare reports from reviews
        2            Finished audit, in reporting phase
        3
        4
        5
        6
        7
        8
        9
       10

       No.                              OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1            Continue the risk assessment of the Police and Security programs
        2
        3
        4
        5
        6
        7
        8
        9
       10




                                                                                  Copy of OIG Monthly Reporting Template 053110.xls
                                                                    OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 4 of 4) Version 4.0a
  Reporting OIG: Amtrak ‐ OIG
   Month Ending 
                 05/31/2010
           Date:

                                                                                   TRAINING ACTIVITIES
                                                                                                                                            Hours of
                                                                                                                 Length of                  Training                  Presentation    Average
                                                Target                            Training Location   Date of                 Number of                   Cost of
     No.               Type of Training                       Title of Training                                   Training                 Provided                    with Other    Evaluation
                                               Audience                              (City, State)    Training               Participants                 Training
                                                                                                                  (hours)                   (length x                     OIGs         Rating
                                                                                                                                          participants)
      1                                                                                                                                               0
      2                                                                                                                                               0
      3                                                                                                                                               0
      4                                                                                                                                               0
      5                                                                                                                                               0
      6                                                                                                                                               0
      7                                                                                                                                               0
      8                                                                                                                                               0
      9                                                                                                                                               0
      10                                                                                                                                              0
      11                                                                                                                                              0
      12                                                                                                                                              0
      13                                                                                                                                              0
      14                                                                                                                                              0
      15                                                                                                                                              0
                                                                                                                  TOTAL                 0             0

                                            OUTREACH ACTIVITIES
                                               Number of
                                             Organizations                           Outreach
                    Organization to which                    Description of                            Date of
     No.                                     Represented at                        Location (City,
                     Outreach Provided                         Outreach                               Outreach
                                               Outreach                                State)
                                                Session
      1
      2
      3
      4
      5
      6
      7
      8
      9
      10
      11
      12
      13
      14
      15




                                                                                                                                        Copy of OIG Monthly Reporting Template 053110.xls
